           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        THE SOCIAL SECURITY
    ADMINISTRATION’S CLEAN-UP OF
    TITLE II DISABILITY INSURANCE
       CASES WITH A WORKERS’
       COMPENSATION OFFSET


      October 2004 A-04-03-13042




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                     SOCIAL SECURITY

MEMORANDUM


Date:   October 14, 2004                                                       Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: The Social Security Administration’s Clean-up of Title II Disability Insurance Cases with
        a Workers’ Compensation Offset (A-04-03-13042)


        OBJECTIVE
        Our objective was to assess the Social Security Administration’s (SSA) accuracy in
        cleaning up the first group of Title II Disability Insurance (DI) cases involving workers’
        compensation (WC) offsets. Additionally, we determined the accuracy of the Office of
        Quality Assurance and Performance Assessment’s (OQA) estimate of the dollar effect
        of errors that occurred and continue to exist in this population of WC offset cases.

        BACKGROUND
        SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program
        under Title II of the Social Security Act, as amended (Act). Section 223 of the Act1
        requires that SSA provide monthly DI benefits to individuals who meet specific disability
        requirements.

        Workers injured on the job may qualify for DI benefits in addition to benefits under
        Federal and State WC programs. However, combined DI and WC benefits could result
        in workers receiving more in disability payments than they earned before they became
        disabled. To prevent this, Congress enacted the WC offset provision under section 224
        of the Act,2 which requires that SSA reduce DI payments by the amount of any other
        disability benefit paid under any law or plan of the United States, a State, or a political
        subdivision. In each instance, SSA reduces the DI benefit, unless the other disability
        payment originates in a State with a “reverse offset” law. For States with a recognized
        “reverse offset” law, the WC benefit would be reduced.


        1
            42 U.S.C. § 423.
        2
            42 U.S.C. § 424a.
Page 2 - The Commissioner


As a result of previous Office of the Inspector General reports, SSA formed a work
group to improve the accuracy of the WC work load. This improvement process
included a clean-up of previously computed WC offset cases by redeveloping and
reverifying the offset calculations of beneficiaries who met specific criteria. Although
SSA’s clean-up tracked the number of WC cases the Agency paid correctly, underpaid,
and overpaid, it did not track the monetary value of all errors detected. Additional
information regarding SSA’s initial clean-up of WC cases is in Appendix B.

To determine the dollar value of the errors in the initial WC clean-up group, SSA’s OQA
estimated the amount of payments the clean-up corrected and the dollar errors the
clean-up missed or incorrectly calculated. In doing so, OQA reviewed a sample of
cases SSA reworked during the clean-up. Further details regarding OQA’s sampling
and estimation methodologies are included in Appendix C.

We performed this review to determine the accuracy of SSA’s first WC clean-up. We
also determined the accuracy of the dollar effect of errors that continue to exist, as
reported by OQA. Our review focused on the first group of WC cases that were cleaned
up. This population consisted of 61,581 Title II DI cases whose WC offsets began
during the period 1966 to 1993 and were in current pay status as of November 1998.
Additional information regarding our scope and methodology is in Appendix D.

RESULTS OF REVIEW
In addition to the $256.5 million in payment errors OQA identified, we estimate SSA
missed or incorrectly calculated $87.5 million in payment errors in its initial WC clean-up
population. As such, we estimate that SSA missed or incorrectly calculated
approximately $344 million in payment errors during its clean-up effort. These payment
errors may continue to occur until the cause of the payment errors is corrected. The
additional payment errors resulted in under- and overpayments totaling $46.6 million
and $40.9 million, respectively.

The payment errors we identified, as well as those detected during SSA’s clean-up and
OQA’s review, resulted from various mistakes in processing WC claims. For example,
SSA staff did not always verify beneficiaries’ WC benefits with the applicable State or
local entity, misapplied benefits related to lump-sum WC settlements, did not properly
identify and calculate the effects of attorney fees, miscalculated triennial
redeterminations,3 interpreted policy incorrectly, and made calculation errors. Given the
complexity of processing WC claims and the various mistakes affecting payment
accuracy overlooked during the clean-up, we believe the process may still be
significantly error prone. Therefore, we encourage SSA to continue monitoring the
payment accuracy of WC claims and consider additional procedures that would improve
and simplify this process.

3
 A triennial redetermination of a beneficiary’s average current earnings occurs when Title II DI benefits
have been offset (reduced) for 3 consecutive years because of WC payments. A triennial redetermination
can result in increased benefits since the average current earnings is recalculated using a ratio to protect
beneficiaries against inflation.
Page 3 - The Commissioner


PAYMENT ERRORS REMAIN AFTER THE CLEAN-UP

Despite SSA’s extensive efforts to improve the accuracy of payments to beneficiaries
receiving DI and WC, significant payment errors remain in this population. Our review
identified $87.5 million in additional payment errors in the first WC clean-up population.
This amount is in addition to the $256.5 million OQA identified in its review. In total, we
estimate the first population of WC cases SSA cleaned up contained approximately
$344 million in payment errors. We have categorized these errors as underpayment
and overpayment errors.

Underpayment Errors

This category includes (1) underpayments in excess of those identified by SSA and/or
OQA and (2) reductions in overpayment errors identified by SSA and/or OQA. We
reviewed 50 of the 171 cleaned up WC cases in which OQA agreed with SSA’s
clean-up decision. Based on our review, we disagree with OQA and SSA’s clean-up
decision in 6 (12 percent) of the 50 cases. Three of these cases had underpayment
errors totaling $21,243. The underpayments ranged from $587 to $17,166. SSA
representatives reviewed these cases and agreed that underpayment errors existed.
As a result, SSA initiated corrective action to release the underpayments to the
beneficiary or their legal representative. However, based on the payment error rate
identified and using OQA’s original estimation methodology, we estimate that an
additional $46.6 million in underpayments exist in the cleaned up WC cases and may
continue to occur if the cause of the payment errors is not corrected. Further detail
regarding our estimation methodology is in Appendix E.

All three of the cases had past or retroactive (retro) underpayment errors. That is, the
error occurred sometime after the beneficiaries’ date of entitlement and ended before
the last month preceding the SSA clean-up. These retro underpayments did not affect
the beneficiaries’ future DI payments. The retro underpayments for these three cases
totaled $20,656. Given this error rate, we estimate that $19.3 million in retro
underpayments continue to exist in the cleaned up population of WC cases.

One of the three cases also had an underpayment error that occurred in the month of
the clean-up. If not corrected, the underpayment error will continue to affect future
payments, causing additional underpayments. The underpayment that occurred during
the month of the clean-up for the case was $587. Based on this error rate, we estimate
$27.3 million in continuing underpayments may occur in the population.4




4
 The continuing underpayment dollar error estimate was based on OQA’s methodology, which assumed
an uncorrected continuing underpayment error would continue throughout the life of the DI claim –
estimated at 100 months.
Page 4 - The Commissioner


Below are discussions of the three cases with underpayment errors that should have
been corrected during the clean-up or as part of OQA’s study. See Table 1 for a
comparison of SSA and OQA’s clean-up results to the results of our case reviews.

•   In the first case, the clean-up determined that no payment error occurred. However,
    the clean-up did not identify a $17,166 retro underpayment and a $587 monthly
    underpayment that would continue to occur in future monthly payments if not
    corrected. The underpayments were due to an error in prorating a lump sum
    settlement.5 SSA incorrectly prorated a lump sum settlement at a rate of
    $170.85 per week when the settlement should have been prorated at $170.85 per
    month. The error caused the WC offset to be overstated, which resulted in the
    beneficiary receiving a reduced monthly DI benefit. As a result of our audit, SSA
    corrected the case and paid the beneficiaries the entire DI underpayment.

•   In the second case, the clean-up determined the beneficiary had been underpaid
    $1,592. However, the clean-up missed an additional $1,873 in underpayments. The
    additional underpayments were related to the initial DI award.6 We generally agreed
    with the DI payable amounts SSA calculated and posted on the beneficiary’s Master
    Beneficiary Record, which totaled $5,582. However, the amount SSA paid the
    beneficiary for that period, $3,709, did not match the amount due. The beneficiary is
    now deceased. SSA will release the underpayment once a legal representative of
    the deceased beneficiary’s estate is established.

•   In the third case, the clean-up determined the beneficiaries were overpaid
    $10,414. The primary beneficiary was overpaid $8,018, and an auxiliary beneficiary7
    was overpaid $2,396. We agreed with the auxiliary beneficiary’s overpayment.
    However, the primary beneficiary was actually underpaid $1,617. SSA agreed the
    case was underpaid and found the error occurred when the clean-up did not
    consider previously recognized overpayments. Since SSA waived the erroneously
    established overpayment soon after it was posted to the Master Beneficiary Record,
    the beneficiary was not adversely affected by the overpayment decision. The
    beneficiary has since received the underpaid benefits.




5
 A lump sum settlement represents the total of all the remaining WC payments due the disabled worker.
The lump sum award must be prorated to determine the amount and length of time to offset the
beneficiary’s Title II DI benefits.
6
 The initial award includes the accrued benefits payable from the date of entitlement to the date SSA
begins paying the benefits to the beneficiary.
7
 Auxiliary beneficiaries are children, widows, spouses, and parents who receive OASDI benefits based
on another wage earner's Social Security record.
Page 5 - The Commissioner


                Table 1: Comparison of SSA and OQA’s Clean-up Results
                             to Our Case Review Results

               SSA & OQA’s                              OUR CASE                             DIFFERENCE
            CLEAN-UP DECISION                        REVIEW RESULTS
                                       Retro         Retro    Continuing       Continuing
             Under-     Over-          Under-        Over-      Under-           Over-          Under-
Case        payment    payment        payment       payment    payment          payment        payment
 No.          Error     Error           Error        Error       Error           Error           Error
     1          $-0-         $-0-       $17,166           $-0-        $587            $-0-        $17,753
     2        1,592           -0-         3,465            -0-          -0-            -0-          1,873
     3           -0-      10,414          1,617            -0-          -0-            -0-          1,617
    Total    $1,592      $10,414        $22,248           $-0-        $587            $-0-        $21,243

Overpayment Errors

This category includes (1) overpayments in excess of those identified by SSA and/or
OQA and (2) reductions in underpayment errors identified by SSA and/or OQA. In
addition to the 3 underpayment cases discussed above, we disagreed with OQA and
SSA’s clean-up decision on an additional 3 (6 percent) of the 50 cases we reviewed.
Specifically, we determined that the three cases had overpayment errors. In each of
these cases, OQA agreed with SSA’s clean-up decision; however, we determined the
three cases had $28,833 in retro overpayments. One case had a retro overpayment
error of $20,331 and a $77 continuing monthly overpayment error. If the cause of the
continuing overpayment was not corrected as a result of our review, the beneficiary
could have received monthly overpayments for the remainder of the DI claim. SSA
representatives reviewed these cases and agreed overpayment errors existed. As a
result, SSA initiated corrective action to collect the overpayments. However, given the
above payment errors and using OQA’s original estimation methodology, we estimate
an additional $40.9 million in overpayments existed and may continue to occur in the
initial clean-up population.

Below are discussions of the three cases with overpayment errors that should have
been corrected during the clean-up or as part of OQA’s study. See Table 2 for a
comparison of SSA and OQA’s clean-up results with the results of our review.

•     In the first case, SSA’s clean-up determined the beneficiary was overpaid because
      the Agency did not recalculate the DI benefits for the primary beneficiary after the
      auxiliary beneficiary’s payments were terminated. However, SSA determined the
      overpayment could not be charged against the beneficiary because of its
      administrative finality rules.8 We asked SSA to review the clean-up decision. SSA’s
      subsequent review determined that administrative finality did not apply to the

8
  Administrative finality is the concept that an SSA determination or decision becomes final and binding
when rendered, unless it is timely appealed or later reopened and revised for special reasons. See,
20 C.F.R. 404.987, 404.988, 404.990, 404.991a; SSA's Program Operations Manual System Chapter
GN 040: Administrative Finality. SSA’s clean-up determined the case facts precluded SSA from
reopening the case to correct the overpayment.
Page 6 - The Commissioner


      overpayment.9 As a result, the clean-up did not record that the beneficiary had a
      $20,331 retro overpayment and a $77 monthly overpayment that would affect future
      payments. SSA has informed the beneficiary of the debt.

•     In the second case, the clean-up determined that no payment error occurred.
      However, our review determined an auxiliary beneficiary was overpaid during the
      clean-up period. SSA agreed the clean-up should have identified an overpayment
      and is now attempting to recover $6,604 in overpayments. Verification of the WC
      payments revealed that, for nearly 4 years, SSA erroneously paid the auxiliary
      beneficiary full benefits. SSA determined that WC payments received during the
      4 years would have caused the DI benefits to be offset and paid at a lower amount.

•     In the third case, the clean-up identified a $4,572 overpayment. We disagreed with
      the clean-up decision and asked SSA to review the case. SSA’s review determined
      that the overpayment should have been reduced by $1,100 because the clean-up
      did not consider all of the beneficiary’s attorney expenses when determining the
      benefits. As a result, SSA returned $1,100 in benefits that were withheld to recover
      the overpayment. However, after considering SSA’s comments, we determined that
      the case continued to be overpaid by $1,898, not underpaid. We found the clean-up
      and SSA’s subsequent review overlooked 12 months of DI payments when it
      compared the total benefits paid to the benefits payable. SSA agreed that the
      benefits had been miscalculated and has initiated actions to collect the
      overpayment.

                Table 2: Comparison of SSA and OQA’s Clean-up Results
                             to Our Case Review Results

                SSA & OQA’s                                OUR CASE                             DIFFERENCE
             CLEAN-UP DECISION                         REVIEW RESULTS
                                       Retro         Retro     Continuing        Continuing
              Under-      Over-        Under-        Over-       Under-            Over-            Over-
    Case     payment     payment      payment       payment     payment           payment          payment
     No.       Error      Error         Error        Error        Error            Error            Error
      1          $-0-          $-0-         $-0-     $20,331             $-0-            $77          $20,408
      2           -0-           -0-          -0-       6,604              -0-             -0-           6,604
      3           -0-        4,572           -0-       6,470              -0-             -0-           1,898
    Totals       $-0-       $4,572          $-0-     $33,405             $-0-            $77          $28,910

PAYMENT ERRORS RESULTED FROM PROCESSING MISTAKES

We recognize the complexity of SSA’s process for calculating DI benefits for individuals
who also receive WC and the significant human resources the clean-up effort required.
Furthermore, we acknowledge the clean-up effort generally involved cases with many

9
  SSA’s subsequent review cited Program Operations Manual System, GN 04001.030, which states that
administrative finality only applies to initial determinations. Any action that is not an initial determination is
not protected by the rules of administrative finality. A failure to make a determination with respect to any
claim or post-entitlement issue is not an initial determination. Whenever such failure comes to SSA’s
attention, an adjudication of the claim or post-entitlement issue is in order.
Page 7 - The Commissioner


years of payment history. Therefore, we expect these cases to be more complex as
events, such as change in family status, occur in the beneficiaries’ lives and
subsequently impact DI payments.

In general, the clean-up effort required that SSA staff (1) analyze a complex set of
circumstances surrounding each case, (2) determine the appropriate treatment of the
facts, (3) recalculate the benefits due for the entire period of entitlement, and
(4) compare the recalculated benefits to the benefits already paid. As such, SSA staff
performing the clean-up review

•   required a working knowledge of SSA’s policy and procedures;

•   analyzed various documents related to WC benefits including one-time, lump sum
    settlements;

•   identified and calculated the effect of attorney fees and other expenses related to
    WC and DI benefit claims;

•   determined and applied changes in a beneficiary’s family status;

•   calculated pro forma benefits to determine whether triennial redeterminations
    applied; and

•   analyzed data from various SSA information systems.

The following circumstances contributed to the six payment errors we noted in the WC
cases.

•   Lump sum WC settlements were incorrectly prorated.

•   Benefits related to an initial award period were paid incorrectly.

•   Overpayments previously posted to the beneficiary’s Master Beneficiary Record
    were overlooked.

•   SSA’s policy related to administrative finality was misinterpreted.

•   WC benefits were not verified with the State or local authority.

•   Attorney expenses related to a WC settlement were not considered.

•   DI benefits that had been paid were overlooked, resulting in a calculation error.

OQA also tracked the processing mistakes SSA made in the 68 WC cases it found with
payment errors. OQA categorized the errors as those related to incorrect calculations,
lump sum pro-ration of WC settlements, WC rate changes, calculation of triennial
Page 8 - The Commissioner


redeterminations, and other errors. The other errors category included processing
errors related to applying attorney fees, verifying WC benefits, misinterpreting policy,
determining the effects of earnings, and transcription errors.

The following chart details the processing errors OQA identified in the 68 payment error
cases.

                   Table 3: OQA’s WC Case Processing Errors
                             Number                 Percent
       Type of Error         of Errors             of Errors
  Calculation                   18                     26
  Lump Sum Proration            15                     22
  Rate Change                   10                     15
  Triennial
  Redeterminations                8                    12
  Other                         17                     25
                   Total        68                    100

We acknowledge SSA implemented revised procedures for processing cases with WC
offsets. Further, we understand that some of the processing errors may not have
occurred if the revised procedures were implemented before SSA initiated the clean-up.
However, because the errors were not isolated to a few processes, and given the
overall complexity of WC cases, we believe DI benefits with WC offsets continue to be
error prone. Accordingly we encourage SSA to continue monitoring the accuracy of the
WC claims process.

CONCLUSION AND RECOMMENDATION
Paying benefits accurately is a critical component of SSA’s goal of providing world-class
service. We acknowledge the commitment SSA has made to improving the accuracy of
DI payments involving a WC offset. However, we are concerned with the errors that
continue to exist even after cases have been reviewed. Therefore, we recommend that
SSA:

1. Evaluate the effectiveness of the procedures implemented to improve the payment
   accuracy of the WC workload and implement new or additional procedures, as
   necessary.
Page 9 - The Commissioner


AGENCY COMMENTS
SSA agreed with our recommendation and stated, in June 2004, the Agency
implemented software to improve systems support for the WC workload. SSA is also
evaluating procedures used during the WC clean-up to identify other areas for
improvement. See Appendix F for the full text of SSA’s comments.




                                            S
                                            Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – The Social Security Administration’s Clean-up of the Workers’
             Compensation Workload

APPENDIX C – Office of Quality Assurance and Performance Assessment’s
             Methodology for Reviewing the Social Security Administration’s
             Workers’ Compensation Clean-up Effort

APPENDIX D – Scope and Methodology

APPENDIX E – Sampling and Estimation Methodologies

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
DI      Disability Insurance
OASDI   Old-Age, Survivors and Disability Insurance
OQA     Office of Quality Assurance and Performance Assessment
SSA     Social Security Administration
WC      Workers’ Compensation
                                                                                    Appendix B

The Social Security Administration’s Clean-up
of the Workers’ Compensation Workload
As a result of our previous reports, the Social Security Administration (SSA) formed a
work group to improve the accuracy of the workers’ compensation (WC) work load.
This improvement process included a clean-up of previously computed WC offset cases
by redeveloping and reverifying the offset calculations of beneficiaries who met specific
criteria. Between July 1999 and September 2001, SSA began its clean-up with an initial
group of 61,581 Disability Insurance (DI) cases in which (1) the offsets began during the
period 1966 to 1993 and (2) the primary beneficiaries were in current pay status as of
November 1998. Although SSA’s clean-up tracked the number of WC cases the
Agency paid correctly, underpaid, and overpaid, it did not track the monetary value of all
errors detected.

To determine the dollar value of the errors in the initial WC clean-up group, SSA’s Office
of Quality Assurance and Performance Assessment (OQA) estimated the amount of
payments the clean-up corrected and the dollar errors the clean-up missed or
incorrectly calculated. In doing so, OQA reviewed a sample of cases SSA reworked
during the clean-up.

Based on the results of its review, OQA estimated that, if SSA had not conducted the
clean-up and corrected the payment errors, beneficiaries would not have received an
estimated $233.5 million in benefits due them and would have continued to be
underpaid $518.5 million over the life of the DI claims. Additionally, OQA estimated that
the clean-up corrected $39.1 million in overpayments and prevented $20.4 million in
future overpayments to beneficiaries. In total, SSA corrected and prevented under- and
overpayments of $752 million and $59.5 million, respectively.1

However, OQA’s review also determined that, during the clean-up, SSA missed or
incorrectly calculated dollar errors that should have been detected. Specifically, OQA
estimated that $256.5 million in payment errors continued to exist in the cleaned up
cases and may continue to occur if the causes of the payment errors are not corrected.2
The payment errors resulted in under- and overpayments totaling $169.6 million and
$86.9 million, respectively.

1
  OQA originally reported the clean-up corrected and prevented under- and overpayments totaling
$718.1 million and $52.6 million, respectively. However, subsequent changes to the database used to
determine the estimate resulted in the revised corrected and prevented under- and overpayments of
$752 million and $59.5 million, respectively.
2
  OQA originally reported $247.6 million in missed or incorrectly calculated dollar errors. However,
subsequent changes to the database used to determine the estimate resulted in the revised
$256.5 million in undetected payment errors.


                                                   B-1
SSA took several actions to improve the clean-up process after receiving OQA’s
findings. However, the Agency had already reviewed 80 percent of the 61,581 cases
before the improvements were introduced.

Improvements to the Workers’ Compensation Offset Process

In response to the complexity of administering the WC offset provision and the high rate
of payment errors, SSA implemented improvements to ensure its beneficiaries receive
the correct DI benefit. In addition to reviewing the accuracy of its benefit payments,
SSA took the following actions:

•   conducted a nationwide WC refresher training course,

•   revised the WC chapter in the Program Operations Manual System,

•   implemented a revised process to reverify WC information every 3 years, and

•   released a Title II software redesign to improve payment accuracy by automating
    computations.




                                          B-2
                                                                        Appendix C

Office of Quality Assurance and Performance
Assessment’s Methodology for Reviewing the
Social Security Administration’s Workers’
Compensation Clean-up Effort
BACKGROUND

The Social Security Administration’s (SSA) Office of Quality Assurance and
Performance Assessment (OQA) performed a study to determine whether SSA’s
workers’ compensation (WC) clean-up properly identified and corrected payment errors
in the WC cases or, if payment errors continued to exist, to what extent. Also, since
SSA did not quantify the results of the clean-up, OQA’s study estimated the amount of
payment errors SSA identified and corrected in the clean-up effort.

SAMPLE SELECTION

OQA initiated its study at a time when SSA had completed its review of approximately
40 percent of the 61,581 cases the Agency selected for clean-up. During its review,
OQA selected and tested a random sample of 239 cases for which SSA had completed
the clean-up. The cases were selected from each of the three SSA-determined
clean-up decision categories: (1) no change (payment was accurate), (2) underpayment
error, and (3) overpayment error. OQA sampled 103 no change, 86 underpayment and
50 overpayment cases. The sampled cases were distributed for review to qualified staff
at the regional quality assurance branches. The reviews were conducted between
August and October 2000.

CASE REVIEWS

To determine the appropriateness of SSA’s clean-up decision, OQA obtained the Title II
beneficiary file or reviewed SSA’s online WC data for the selected cases, analyzed the
pertinent facts, and recomputed the Disability Insurance (DI) benefits due. OQA then
compared the recomputed DI benefits to the benefits already paid to determine whether
a payment error existed. The payment errors were classified as either underpayments
or overpayments. Both the underpayments and the overpayments were further
classified into past or retroactive (retro) and continuing errors. The retro errors occurred
sometime within the beneficiaries’ entitlement period but did not affect future payments.
Continuing errors were identified in the month of the clean-up and were expected to
affect future payments if not corrected.




                                            C-1
The cases OQA initially identified as having payment errors were returned to SSA for
concurrence and correction. OQA did not consider the case to be in error until SSA
concurred or OQA agreed with SSA’s subsequent review and correction.

RESULTS

OQA’s study found payment errors totaling $474,798 in 68 of the 239 sampled cases.
Applying this error rate to the universe of 61,581 cases, OQA estimated that
17,814 (28.9 percent) of the cleaned up cases have $256.5 million in payment errors
that continue to exist and may occur if the causes of the payment errors are not
corrected. The payment errors resulted in both underpayments and overpayments
totaling $169.6 million and $86.9 million, respectively. The errors occurred in all
three SSA-determined clean-up categories and were the result of various mistakes in
computing the monthly DI benefits. For example, some mistakes related to processing
lump sum settlements, applying changes in WC payments, changes in family status,
and calculating triennial redeterminations (a type of cost-of-living adjustment).




                                          C-2
                                                                               Appendix D

Scope and Methodology
We performed this review to determine the accuracy of the Social Security
Administration’s (SSA) first workers’ compensation (WC) clean-up. We also determined
the accuracy of the dollar effect of errors that continue to exist, as reported by the Office
of Quality Assurance and Performance Assessment (OQA). Our review focused on the
first group of cleaned up WC cases. This population consisted of 61,581 Title II
Disability Insurance (DI) cases whose WC offsets began during the period 1966 to 1993
and were in current pay status as of November 1998.

Because OQA tested this population and performed work related to our objective, we
limited the scope of our review to evaluating the sufficiency, relevance, and competence
of evidence OQA used to support the dollar errors identified in the clean-up population.

To assess the reliability of OQA’s work, we

•   obtained an understanding of its scope and methodology,

•   traced the dollar errors recorded in OQA’s database to the source documents,

•   assessed the qualifications of the individuals who reviewed the WC cases, and

•   reviewed a sample of 50 WC cases in which OQA agreed with SSA’s clean-up
    decision and 25 WC cases in which OQA disagreed with the clean-up decision.

To determine whether we agreed with OQA’s decision, we

•   queried SSA’s systems1 for Title II DI and WC data,

•   reviewed the beneficiaries’ Title II case folders,

•   reviewed OQA’s work papers related to the DI benefit calculations, and

•   completed SSA worksheets2 to determine the benefits payable from the date the
    beneficiary was entitled to DI payments through the clean-up date shown on the
    Master Beneficiary Record.

1
 We queried the Master Beneficiary Record; Payment History Update System; Retirement, Survivors and
Disability Insurance Payment History; Earnings Query; and Lump Sum Proration.
2
 The SSA worksheets used to determine the benefits payable included the SSA-2204 Payment
Worksheet, SSA-1203 Determination of Benefits Payable After Offset, SSA-2455 Offset Worksheet-
Disability Insurance Benefits, SSA-3643 Offset Worksheet-Triennial Redetermination, and the SSA-2454
Offset Worksheet Triennial Redetermination Previously Applied.


                                                D-1
The SSA entities reviewed were OQA under the Deputy Commissioner for Finance,
Assessment and Management, and the Offices of Income Security Programs and
Disability Programs under the Deputy Commissioner for Disability and Income Security
Programs. We performed our audit in Atlanta, Georgia, and Baltimore, Maryland. We
conducted our audit from April 2003 to May 2004 in accordance with generally accepted
government auditing standards.




                                         D-2
                                                                       Appendix E

Sampling and Estimation Methodologies
BACKGROUND

The payment errors reported by the Office of Quality Assurance and Performance
Assessment (OQA) were based on the results of reviews it performed on a sample of
Social Security Administration (SSA) workers’ compensation (WC) clean-up cases.
From the population of SSA clean-up cases, OQA selected and tested a random
sample of 239 cases. OQA agreed with SSA’s clean-up results on 171 of the 239 cases
and found additional payment errors in the remaining 68 cases. OQA estimated a
$256.5 million Disability Insurance (DI) payment error based on the errors it identified in
the 68 cases.

METHODOLOGY

To test the accuracy of OQA’s case reviews, we sampled and reviewed 50 of the
171 cases in which OQA agreed with SSA’s clean-up results. Additionally, we sampled
and reviewed 25 of the 68 cases in which OQA disagreed with SSA’s clean-up decision.
Our review of the 75 cases involved recalculating the DI benefits based on the facts
identified in the beneficiary case folders and information obtained from SSA’s systems
of records.

We deemed a case to have a reportable payment error when our review determined
that an

•   underpayment error was equal to or greater than 1 percent of the total case
    payments or

•   overpayment error was equal to or greater than 3 percent of the total case
    payments.

We generally agreed with the payment errors OQA identified in the 25 cases we
reviewed in which OQA disagreed with SSA’s clean-up results. To estimate the
payment errors in our sample of 50 cases in which OQA agreed with SSA’s clean-up
decision, we applied the same methodology OQA used to estimate the errors it
identified in its sample of 239 cases. This methodology included a separate error
estimate for the retroactive (retro) and continuing underpayment errors and the retro
and continuing overpayment errors identified in the case reviews. We based the retro
and continuing error estimates on the expected number of error cases in the population,
multiplied by the combined OQA and Office of the Inspector General (OIG) average
dollar error rate in each of the SSA clean-up categories – no change, underpayment
and overpayment. Additionally, we multiplied the continuing payment errors by



                                            E-1
100 because OQA estimated that, if not corrected, a continuing error would remain
throughout the life of the DI claim – estimated at 100 months.

As shown in the following tables, our review identified $87.5 million in additional
payment errors in the first WC clean-up population. This amount is in addition to the
$256.5 million OQA identified in its review. In total, we estimate that the first population
of WC cases SSA cleaned up contains approximately $344 million in payment errors.

                           Table 1: Additional Payment Errors (in millions)

                                            OQA
                        SSA              Identified            Revised               Additional
                      Clean-up           Payment               Payment                Payment
                     Categories            Errors               Errors                 Errors
                    Retro
                Underpayments                $90.1             $109.4                  $19.3
                    Retro
                Overpayments                  22.2                42.9                  20.7
                  Continuing
                Underpayments                 79.5              106.8                   27.3
                  Continuing
                Overpayments                64.7                 84.9                   20.2
                          Total           $256.5               $344.0                  $87.5


Underpayments

            Table 2: Revised Retro Underpayment Cases in Error

           SSA                                                  OQA         OIG
         Clean-up                   OIG           OIG          Agreed    Estimated       OQA       Revised
          Result         OIG      Cases in     Case Error     With the   Cases in       Cases in   Cases in
                                                                                 1
        Categories      Sample     Error         Rate         Clean-up     Error         Error      Error

        No Change         23         1           4.3%           82          4              14        18
          Under-
         payment          13         1           7.7%           55          4              19        23
          Over-
         payment          14         1           7.1%           34          2              11        13
             Total        50         3             --          171         10              44        54




1
  Because we did not review all 171 cases, we estimated the number of additional cases in this population
that were in error. To calculate this estimate, we multiplied the “OIG Case Error Rate” by the number of
cases in which “OQA Agreed With the Clean-up.”



                                                        E-2
    Table 3: Estimated Retro Underpayment Errors that Exist After the Clean-Up

                                                                                     OIG/ OQA
        SSA                                                           Estimated      Combined
      Clean-up         OQA      Revised    Case                        Number         Average      Estimated
       Result        Clean-up   Cases in   Error        Clean-up      of Cases         Dollar      Payment
                                                                                                           2
     Categories       Sample     Error     Rate         Universe       in Error        Error        Errors

    No Change          103        18       17.5%        25,618         4,483           $6,245      $27,996,335
      Under-
     payment            86        23       26.7%        29,928         7,991            7,708       61,594,628
      Over-
     payment            50        13       26.0%         6,035         1,569           12,643       19,836,867
         Total         239        54         --         61,581        14,043            --        $109,427,830


            Table 4: Revised Continuing Underpayment Cases in Error

           SSA                                               OQA            OIG
         Clean-up                 OIG         OIG           Agreed       Estimated      OQA        Revised
          Result        OIG     Cases in   Case Error      With the      Cases in      Cases in    Cases in
        Categories     Sample    Error       Rate          Clean-up        Error        Error       Error

        No Change        23         1        4.3%             82               4         10          14
          Under-
         payment         13         0          --             55               0          8           8
          Over-
         payment         14         0          --             34               0          7           7
             Total       50         1          --            171               4         25          29


        Table 5: Estimated Continuing Underpayment Errors that Exist
        After the Clean-Up

                                                                                     OIG/ OQA
        SSA                                                           Estimated      Combined
      Clean-up         OQA      Revised    Case                        Number         Average      Estimated
       Result        Clean-up   Cases in   Error        Clean-up      of Cases         Dollar      Payment
                                                                                                           3
     Categories       Sample     Error     Rate         Universe       in Error        Error        Errors

    No Change          103         14      13.6%        25,618          3,484          $169        $58,879,600
      Under-
     payment            86         8       9.3%         29,928          2,783           122         33,952,600
      Over-
     payment            50         7       14.0%         6,035            845            165        13,942,500
         Total         239         29        --         61,581          7,112           --        $106,774,700




2
 The retro estimated payment errors are calculated by multiplying the “Estimated Number of Cases in
Error” by the “OIG/OQA Combined Average Dollar Error.”
3
  The continuing estimated payment errors are calculated by multiplying the “Estimated Number of Cases
in Error” by the “OIG/OQA Combined Average Dollar Error.” The sum is then multiplied by 100 months.
For example, in the “No Change” category, the 3,484 cases in error multiplied by the $169 average dollar
error totals $588,796. When multiplied by 100 months, the estimated payment error equals $58,879,600.


                                                    E-3
Overpayments

                Table 6: Revised Retro Overpayment Cases in Error

         SSA                                               OQA            OIG
       Clean-up       OIG       OIG         OIG           Agreed       Estimated      OQA        Revised
        Result       Sample   Cases in   Case Error      With the      Cases in      Cases in    Cases in
      Categories               Error       Rate          Clean-up        Error        Error       Error

     No Change         23         2        8.7%             82               7          6          13
       Under-
      payment          13         0          --             55               0         12          12
       Over-
      payment          14         1        7.1%             34               2          6           8
          Total        50         3          --            171               9         24          33


  Table 7: Estimated Retro Overpayment Errors that Exist After the Clean-Up

                                                                                   OIG/ OQA
      SSA                                                           Estimated      Combined
    Clean-up         OQA      Revised    Case                        Number         Average      Estimated
     Result        Clean-up   Cases in   Error        Clean-up       of Cases        Dollar      Payment
   Categories       Sample     Error     Rate         Universe       in Error        Error        Errors

   No Change         103        13       12.6%        25,618         3,228          $10,892     $35,159,376
     Under-
    payment           86        12       14.0%        29,928         4,190            1,326       5,555,940
     Over-
    payment           50         8       16.0%         6,035           966            2,275       2,197,650
        Total        239        33         --         61,581         8,384            --        $42,912,966


          Table 8: Revised Continuing Overpayment Cases in Error

         SSA                                               OQA            OIG
       Clean-up                 OIG         OIG           Agreed       Estimated      OQA        Revised
        Result        OIG     Cases in   Case Error      With the      Cases in      Cases in    Cases in
      Categories     Sample    Error       Rate          Clean-up        Error        Error       Error

     No Change         23         1        4.3%             82               4          2           6
       Under-
      payment          13         0          --             55               0          3           3
       Over-
      payment          14         0          --             34               0          1           1
          Total        50         1          --            171               4          6          10




                                                  E-4
  Table 9: Estimated Continuing Overpayment Errors that Exist
  After the Clean-Up

                                                                  OIG/ OQA
   SSA                                                Estimated   Combined
 Clean-up      OQA      Revised    Case                Number      Average   Estimated
  Result     Clean-up   Cases in   Error   Clean-up   of Cases      Dollar   Payment
Categories    Sample     Error     Rate    Universe    in Error     Error     Errors

No Change      103         6       5.8%     25,618     1,486        $243     $36,109,800
  Under-
 payment        86         3       3.5%     29,928     1,047         408      42,717,600
  Over-
 payment        50         1       2.0%      6,035       121         504       6,098,400
     Total     239        10         --     61,581     2,654            --   $84,925,800




                                           E-5
                  Appendix F

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM                                                                       32352-24-1015


Date:      September 22, 2004                                                    Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s Clean-
           up of Title II Disability Insurance Cases With a Workers’ Compensation Offset”
           (A-04-03-13042)--INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comment on the recommendation is
           attached.

           Please let us know if we can be of further assistance. Questions can be referred to
           Candace Skurnik, Director of the Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S CLEAN-UP OF
TITLE II DISABILITY INSURANCE CASES WITH A WORKERS’
COMPENSATION OFFSET” A-04-03-13042

We appreciate the opportunity to comment on the draft report. SSA has been committed
to the review and clean-up of Title II Disability Insurance (DI) cases with a Workers’
Compensation (WC) offset since calendar year (CY) 1998. Phase I of the WC clean-up
began in July 1999, which included Title II DI cases where WC offset began during
CYs 1993 through 1996 and were in current pay status as of November 1998. This
resulted in approximately 62,000 cases which were reworked by SSA staff.
Subsequently, a sample of these cases was reviewed by OIG. As stated within this report,
these cases were highly complex and difficult to review due to their age and intervening
actions, such as entitlement and re-entitlement of beneficiaries, changing WC information
and various other factors.

SSA continued with Phase II of the WC clean-up efforts by reviewing approximately
50,000 DI cases where WC offset began during CYs 1994 through 1998 and were in
current pay status as of February 2000. Phase III cases were those DI cases in current
pay status where WC offset was removed prior to CY 1999 (approximately 280,000
cases). SSA started reviewing these cases in CY 2002 and, thus far, has completed
71,683. About 40,000 Phase III cases were completed in fiscal year (FY) 2003 and about
32,000 have been completed in FY 2004 (through July 2004).

Recommendation:

Evaluate the effectiveness of the procedures implemented to improve the payment
accuracy of the WC workload and implement new or additional procedures, as necessary.

Comment:

We agree. However, we note the cases that were reviewed by OIG were cases completed
early in SSA’s efforts to improve WC processing and therefore may not be representative
of the universe of WC cases at SSA. Since 1999, we have made a number of changes to
the processing of WC cases and have ongoing efforts to evaluate and improve the
accuracy of WC processing.

We believe our technicians have gained extensive experience with the WC workload
since the beginning of the WC clean-up effort and the experience is yielding positive
results in terms of both accuracy and quality for the WC workload. In addition, we
provided refresher training to the technicians processing the cases in CY 1999, we
revised the WC Program Operation Manual System (POMS) procedures in December
2001, and we increased our quality reviews.

In June 2004, we released the Title II Redesign software that provides improved systems
support for the WC workload. We are exploring future systems enhancements that would
allow for better control of post entitlement alerts in our Processing Service Centers.

                                           F-2
SSA staff are currently reviewing 200 of the original 62,000 cases from Phase I in an
attempt to determine the amount of error that can be detected if the cases are reworked a
second time. We are also evaluating the procedures used during WC clean-up cases to
determine if this is an area for improvement. Once the review of these cases is complete,
we will conduct an analysis on how to best avoid the most common type of errors. New
or additional procedures will be developed as necessary based on this review. A final
completion date for the review has not yet been determined.

One of the improvements made to prevent future WC problems was to revise our
instructions to require development for current WC information when the triennial
redeterminations are conducted (every three years). As part of our commitment to
improve WC processing, we will review a sample of these cases to assess the
effectiveness of this new procedure and determine if new or revised procedures are
necessary to ensure correct processing of these cases. A start date for this review has not
yet been determined.




                                            F-3
                                                                       Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605

   Frank Nagy, Deputy Director, (404) 562-5552

Acknowledgments

In addition to those named above:

   Teaketa Turner, Auditor

   Valerie Ledbetter, Auditor

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-04-03-13042.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
